C@OCKLE

2311 Douglas Street j E-Mail Address:
Omaha, Nebraska 68102-1214 L e g a l B rie fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-27
MARK CHEESEMAN,
Petitioner,

Vv.

JOHN POLILLO, CHIEF OF THE GLASSBORO,
NEW JERSEY POLICE DEPARTMENT; AND
KEVIN T. SMITH, SUPERIOR COURT JUDGE,
GLOUCESTER COUNTY, NEW JERSEY,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 1st day of August, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the MOTION FOR LEAVE TO FILE BRIEF AND BRIEF OF AMICI
CURIAE FIREARMS POLICY COALITION, FIREARMS POLICY FOUNDATION, CALIFORNIA GUN RIGHTS
FOUNDATION, AND SECOND AMENDMENT FOUNDATION IN SUPPORT OF PETITIONER in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOSEPH G.S. GREENLEE
Counsel of Record
FIREARMS POLICY COALITION
1215 K Street, 17th Floor
Sacramento, CA 95814
(916) 378-5785
jgr@fpchq.org

Subscribed and sworn to before me this 1st day of August, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

state of Nebeeca -. EC LM Queda bh, Chih,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38410
SERVICE LIST

David D. Jensen

David Jensen PLLC

111 John Street, Suite 420
New York, NY 10038
(212) 380-6615
david@djensenpllc.com
Counsel for Petitioner

Dana R. Anton

Gloucester County Prosecutor's Office
P.O. Box 623

Woodbury, NI 08096

(856) 384-5500
danton@co.gloucester.nj.us

Counsel for Respondents
